         /
                                          \                                         ' -\

                                              E                                        I
                                                       NATIONAL SCIENCE FOUNDATION
     $@.                                                OFFICE OF INSPECTOR GENERAL
                                                          OFFICE OF INVESTIGATIONS
     z
       4
         0
             'ND
                                          /       CLOSEOUT MEMORANDUM

    Case Number: A03070040                                                                          Page 1 of 1



              This case involved several subjects and several allegations with regard to an award that was
              terminated at the awardee's request.
                                                                                                                    I
              Two of the subjects are no longer in the positions they held when the alleged activities took
                                                                                                                    I
              place. The first is a NSF program officer1who investigated matters that should have been
              referred to the OIG several months previously. This subject is no longer at NSF and the
              allegations will not be pursued further. The second is a retired university ~fficial.~Although this
              individual appears to have been involved in a proposed plan within the university to use federal
              funds as part of its cost-sharing obligation, the plan was not implemented. Thus, there is
              insufficient substance to or need to proceed with any allegations involving this official.
I
              There is inadequate support for any allegation involving a second university official3despite his
              preventing the expenditure of NSF funds for the project and his endorsement of the plan to use
              NSF funds for cost sharing, because no NSF funds were used as cost sharing on this award.
              However, the university subunit in which this official administered the award appears to have
              had previous difficulty in compliance with grant conditions. Therefore, we are referring these
              issues to audit for review.

              With regard to the PI and the Co-PIS, there is insufficient substance to proceed with an allegation
              of false statement with regard to the annual report. First, they appear to have accomplished what
              they claimed in the annual report. Second, although their report did not indicate any of the
              difficulties in award administration that ultimately resulted in termination, the program office
              was aware that problems existed and that termination was a likely possibility at the time it
              approved additional funding.

              As there is insufficient substance to proceed further with these allegations, this case is closed.




    NSF OIG Form 2 (1 1/02)
